         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Inspection Report
Follow-up Review of Property
Control and Accountability at the
Idaho National Laboratory




INS-L-11-03                     September 2011
                                  Department of Energy
                                    Washington, DC 20585
                                       September 7, 2011



MEMORANDUM FOR MANAGER, IDAHO OPERATIONS OFFICE

FROM:                    Sandra D. Bruce
                         Assistant Inspector General for Inspections
SUBJECT:                 INFORMATION: Inspection Report on “Follow-up Review of
                         Property Control and Accountability at the Idaho National Laboratory”


BACKGROUND

The primary function of the Idaho National Laboratory (Idaho) is to support the Department of
Energy's (Department) mission regarding nuclear and energy research, science and national
defense. The Idaho Operations Office oversees Battelle Energy Alliance (Battelle), which
manages and operates Idaho for the Department. Under this contract, Battelle is responsible for
establishing and maintaining personal property management systems and conducting periodic
reviews of those systems for all personal property acquired by it and/or Idaho. Batelle is also
responsible for ensuring effective life-cycle management of a large and diverse personal property
inventory of approximately 40,000 items with an acquisition value of about $450 million.
Idaho's personal property portfolio includes, but is not limited to, computers, cell phones,
laboratory equipment and security equipment.

In April 2005, the Office of Inspector General (OIG) issued a report on "Property Control and
Accountability at the Idaho National Laboratory," (DOE/IG-0687). Our report concluded that
certain improvements were needed in property management and reporting processes.
Management concurred with the recommendations and stated that they took corrective action in
response to our report.

Given the past property accountability concerns and new allegations regarding missing property,
we initiated this inspection to determine if Idaho had improved selected aspects of its processes
for managing Government property.

CONCLUSIONS AND OBSERVATIONS

Our inspection revealed that Idaho officials have generally taken corrective action in response to
our 2005 report to improve Idaho's processes for maintaining custody and accountability for
excess property and for reporting and investigating missing or stolen property. Specifically,
Idaho officials:

         Developed procedures to improve its processes for tracking excess property;
         Took several steps to inform employees of their responsibility to adhere to procedures
         and maintain accountability and control of Government property;

         Strengthened the missing or stolen property procedures to improve the reporting
         process; and,

         Modified the procedure designed to strengthen accountability of Government property
         assigned to terminating employees.

Additionally, as a part of our inspection, we evaluated practices as they related to a complaint
which alleged that Idaho may not be exerting due diligence to locate missing property prior to
excessing it from the inventory as "retired" property. Despite specific testing, we could not
substantiate the allegation.

                                         Excess Property

Idaho officials developed selected procedures, including a property report requirement, to
improve its processes for tracking excess property. Specifically, Idaho issued a laboratory-wide
procedure, Disposing of Government Personal Property, to strengthen chain of custody when
excessing property during the staging and transportation phase. Also, Idaho procedures included
a requirement for the individual to generate a copy of an Excess Property Report for each
property item being excessed. This report is retained by the originator until Property Disposal
Services (PDS) notifies the originator that the property has been received at the disposal facility.

Our discussions with Idaho officials regarding property items from the property reports revealed
that employees were preparing and routing the property reports as identified in the procedures.
Also, interviews with property custodians regarding their knowledge of the excess process and
the property report requirements revealed that the custodians demonstrated acceptable
knowledge of their responsibilities to maintain accountability of property. Specifically, property
custodians knew (1) when to prepare the property report, and (2) how to use it as a method to
track the property until the property disposal facility personnel acknowledged receipt of the
property. Further, our interviews with Idaho employees regarding the location of excess
property awaiting shipment to the property disposal facility revealed that the employees could
physically produce the excess property or readily identify the interim storage location. Our
discussions with a number of employees in the property disposal facility disclosed that they were
knowledgeable of the excess property procedures and could readily locate randomly selected
property items within the facility or produce documentation identifying the final disposition of
property items.

Our 2005 inspection report identified property control weakness concerning Information
Technology personnel distributing computer equipment for reuse by Idaho employees. We
determined that Idaho eliminated this practice by issuing a laboratory-wide procedure,
Redistribution of PC Assets, and Sanitization and Redistribution of System Storage Media, which
requires that all excess computer equipment be maintained in a central location for sanitization
and evaluated for disposal or transfer to other laboratory employees. We noted during our



                                                 2
review that each piece of computer equipment is logged on a "PDS-18" form which contained
data related to the individual pieces of equipment, such as a description, tracking and property
numbers, and the appropriate signatures.

Further, we confirmed that Idaho officials strengthened processes to ensure increased
accountability of excess computers during the sanitization and evaluation process. Specifically,
we selected one of the PDS-18 forms and verified that each of the 15 pieces of computer
equipment identified on the form was located in PC Redistribution and accurately logged on the
PDS-18 form. We also determined through discussions with personnel responsible for sanitizing
and evaluating excess computer equipment that they were knowledgeable of the sanitization and
redistribution procedures and were able to produce comprehensive records tracking the
movement of assets between the disposal and sanitization facilities.

                                Property Management Procedures

Idaho officials generally took steps to inform employees of their responsibility to adhere to
property management procedures and maintain accountability and control of Government-
furnished property. Specifically, in response to our concern regarding employee accountability,
Idaho officials took corrective actions including issuing employee standards of conduct and
property accountability bulletins. We reviewed Policy 119, Standards of Conduct and Business
Ethics, which provides guidance to employees concerning specific work situations. We
determined that the section entitled, Use of Idaho National Laboratory Assets, emphasizes the
employee's responsibilities for use of Government assets and states that Government-furnished
supplies and equipment are not intended for personal use. Employees were further advised that
the guidelines set forth in this policy would be enforced and that disciplinary action, up to and
including termination of employment, could be levied against employees who violated this
policy.

Also, as part of their corrective actions, Idaho officials issued four bulletins that discussed
individual accountability, property storage and disposal procedures, property pass requirements
and the implementation of an electronic property management system during 2005-2008. We
reviewed the bulletins that were distributed electronically to employees and determined that each
bulletin covered relevant property issues at the time of publication. In addition, we reviewed the
laboratory-wide procedure, 2001 Control of Idaho National Laboratory Government Property,
and found that the procedure was modified to inform employees of their responsibilities related
to the appropriate use of Government property. The procedure states that end users are
responsible for maintaining accountability and control of property; securing equipment to avoid
loss or damage; and complying with all property management procedures regarding disposal of
property.

As such, through our discussions with Idaho property management officials who were
responsible for implementing, distributing and monitoring pertinent property procedures, we
were informed that management has placed emphasis on ensuring employees are continually
aware of their responsibilities to safeguard Government property. Additionally, discussions we




                                                 3
held with Idaho Operations Office personnel in the property and contracting areas confirmed
their familiarity with the contractor's efforts and they also considered these efforts to be adequate
to ensure that employees are aware of property management procedures.

                    Reporting Missing Property and Conducting Investigations

Idaho officials modified the missing or stolen property procedures, including the requisite forms,
in an effort to strengthen the reporting process. In response to a recommendation in our 2005
report, management agreed to: 1) update the missing property report to reflect theft; 2) identify
missing property with sensitive information; 3) modify processes and procedures to require
immediate notification of theft to Idaho security; and, 4) include the current depreciated value
and acquisition costs of items.

We reviewed the requisite forms and found that end users are required to complete the forms and
submit them to their manager within one working day concerning theft or missing property. In
turn, the manager is responsible for contacting Idaho security immediately if theft is suspected.
Employees are also required to include pertinent information related to suspected theft, such as
the date the incident was reported to the police and the police report number. We tested eight
property investigation report packages to establish the timelines in which each phase of the
reporting process occurred and determined that notifications were completed within the required
one-day timeframe and contained the pertinent information. As a result of our procedure and
document reviews, and interviews of property management, contracting and security officials,
we concluded that the changes to the procedures and forms were positive steps toward increased
cooperation and collaboration between property and security officials and improved processes
and procedures.

In an effort to determine if the contractor's instances of lost or missing property identified in the
previous report were related to inaccuracies and/or oversights in current inventories, we also
performed inventory reconciliations. We tested 127 sensitive and highly portable personal
property items from the current inventory with an original acquisition cost of $5,000 or greater.
Our book-to-floor/floor-to-book inventory reconciliation did not reveal any issues that warranted
further review nor was there an indication that the inventory process was inadequate.

                            Property Held by Terminating Employees

Idaho officials modified the procedure, including a form (checklist), to provide assurances that
Government property assigned to employees in the process of terminating employment was
properly accounted for. From our review of the laboratory-wide procedure 2001, Control of
Idaho National Laboratory Government Property, we determined that both the employee's and
manager's responsibilities regarding property accountability for terminating employees are
outlined. Specifically, managers are responsible for reassigning property before an employee
leaves or assigning that property to themselves or another manager if Property Management has
not received appropriate documents before actual employee termination.




                                                  4
We also confirmed that the procedure and checklist requires terminating employees to certify the
return and/or transfer of administratively controlled property and identify any missing
accountable property. Specifically, we determined that Idaho prepared 127 termination
checklists for employees who separated their employment during 2010. We examined 20 of the
127 termination checklists and verified that the terminating employee signed and the responsible
manager certified key elements related to returning or transferring the terminating employees'
assigned property. These key elements included the return of any property passes, wireless
devices and/or equipment specifically related to the manufacturing facilities.

                            Procedures for Retiring Missing Property

We did not find any evidence during our inspection to substantiate the April 2010, OIG Hotline
allegation that Idaho officials may not be exerting due diligence to locate property reported as
missing prior to excessing the property from the inventory as "retired" property. We determined
that Idaho's process to retire property from accountability records, particularly missing property,
was adequate. Department Order 580.1 requires that when retiring property a retirement work
order must be included identifying property that is worn out, lost, stolen, destroyed, abandoned
or damaged beyond economical repair. When property is lost, stolen, damaged or destroyed a
full explanation of the circumstance and investigation results, when applicable, will be provided
to the appropriate officials.

Based on discussions with Idaho officials, we determined that officials were knowledgeable of
the process to retire Government property, to include retiring missing property. We also tested
10 of 19 retirement work orders that were for sensitive property with an original acquisition
value in excess of $5,000. Our testing of the 10 retirement work orders disclosed that the
process for removing missing property from accountability records was effective. As such, our
discussions with management, along with document and procedure reviews, revealed that Idaho
officials were adhering to established policies and procedures for retiring missing property from
the inventory records.

We appreciate the cooperation received from your staff during our inspection. Given that
Department and Idaho officials have generally addressed the prior inspection report findings, and
that steps and procedures have been instituted to continually improve current operations, we are
making no recommendations and a response is not required.

Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Acting Under Secretary of Energy
      Acting Chief Financial Officer
      Chief of Staff




                                                 5
                                                                                     Attachment
SCOPE AND METHODOLOGY

This inspection was performed from October 2010 through September 2011 at Idaho National
Laboratory (Idaho). This was a follow-up performance inspection to our previous report on
"Property Control and Accountability at the Idaho National Laboratory," issued (DOE/IG-0687,
April 2005), which also included information from an Office of Inspector General (OIG) Hotline
allegation. To accomplish the inspection objective, we:

         Reviewed and analyzed the Idaho response and corrective actions related to the
         previous OIG recommendations in the Departmental Audit Report Tracking System;

         Reviewed and analyzed Federal regulations, Departmental directives, and other
         guidance pertaining to property management; as well as reviewed prior reports issued
         by the OIG and the Government Accountability Office;

         Interviewed Federal and contractor staff at Idaho to identify strategies regarding excess
         property management; and,

         Tested a judgmental sample of current sensitive property with an original acquisition
         value of $5,000 or greater to validate/verify recent inventories conducted by Idaho
         contractor employees.

We conducted this performance inspection in accordance with the Council of the Inspectors
General on Integrity and Efficiency's "Quality Standards for Inspections" issued by the
President's Council on Integrity and Efficiency. Those standards require that we plan and
perform the inspection to obtain sufficient, appropriate evidence to provide a reasonable basis for
our conclusions and observations based on our inspection objective. We believe the evidence
obtained provides a reasonable basis for our conclusions and observations based on our
inspection objective. The inspection included tests of controls and compliance with laws and
regulations to the extent necessary to satisfy the inspection objective. Because our review was
limited, it would not necessarily have disclosed all internal control deficiencies that may have
existed at the time of our inspection. Also, we assessed Idaho's compliance with Government
Performance and Results Act of 1993 (GPRA) and found that performance measures had been
established relating to property management. Specifically, we reviewed the Balanced Scorecard
and the Department's method of measuring property management performance. Based on the
information provided by the Department, we determined that Idaho met their 2010 GPRA metric
for timely completion of sales which includes property management performance. Finally, we
relied on computer processed data, to some extent, to satisfy our objective related to property
management. We confirmed the validity of such data, when appropriate, by reviewing source
documents and performing physical observations.

Management waived the Exit Conference.




                                                6
                                                                     IG Report No. INS-L-11-03


                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name __________________________________ Date ________________________

Telephone ______________________________ Organization __________________


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
